VISA Platinum Credit Card Disclosure
Interest Rates and Interest Charges

Premier

Rewards
Earn points for travel and merchandise
with each purchase.

Annual Percentage Rate (APR) for Purchases

1.99% introductory APR for 6 months

1.99% introductory APR for 6 months

from date the account is opened. After that,

from date the account is opened. After that,

the rate on any remaining balance will

the rate on any remaining balance will

return to the APR as disclosed at account

return to the APR as disclosed at account

opening

opening

(9.90% - 17.90%) based

upon your credit worthiness.

(10.90% - 18.90%) based

upon your credit worthiness.

APR for Balance Transfers

9.90% - 17.90%

10.90% - 18.90%

APR for Cash Advances

9.90% - 17.90%

10.90% - 18.90%

Penalty APR and When it Applies

19.99%
This APR may be applied to your account if you:
1) Make a late payment;
2) Make a payment that is returned; or
3) Do any of the above on another account that you have with us.
How Long Will the Penalty APR Apply?
If your APRs are increased for any of these reasons, the Penalty APR will apply until you make six
consecutive minimum payments when due.

How to Avoid Paying Interest on Purchases

Your due date is at least 27 days after the close of each billing cycle. We will not charge
you any interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer

None

• Cash Advance

None

• Foreign Transaction

1% of each transaction in U.S. dollars.

Penalty Fees
• Late Payment

$20.00

• Over-the-Credit Limit

None

• Returned Payment

$20.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
The above information is accurate as of June 1, 2014.

www.foxcu.org

